<html>
<title> - ELECTRONIC SUBMISSION OF HAZARDOUS WASTE MANIFESTS: MODERNIZING FOR THE 21ST CENTURY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
ELECTRONIC SUBMISSION OF HAZARDOUS WASTE MANIFESTS: MODERNIZING FOR THE 

                              21ST CENTURY
=======================================================================



                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2012

                               __________

                           Serial No. 112-154


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-936                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia



              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan (ex 
BILL CASSIDY, Louisiana                  officio)
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     4
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    21
    Prepared statement...........................................    23

                               Witnesses

Suzanne Rudzinski, Director, Office of Resource Conservation and 
  Recovery, Office of Solid Waste and Emergency Response, 
  Environmental Protection Agency................................     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................    52
Lisa Silvia, Senior Waste Inspector, Virginia Department of 
  Environmental Quality, on Behalf of the Association of State 
  and Territorial Solid Waste Management Officials...............    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................    55
David R. Case, Executive Director, Environmental Technology 
  Council........................................................    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................    58

                           Submitted Material

Letter, dated March 28, 2011, from Scott Slesinger, Legislative 
  Director, National Resources Defense Council, to Hon. John 
  Thune, U.S. Senate, submitted by Mr. Green.....................     7
Letter, dated July 20, 2012, from Peter A. Molinaro, Vice 
  President, Federal and State Government Affairs, Dow Chemical 
  Company, to Mr. Upton, submitted by Mr. Shimkus................    28


ELECTRONIC SUBMISSION OF HAZARDOUS WASTE MANIFESTS: MODERNIZING FOR THE 

                              21ST CENTURY

                              ----------                              


                        THURSDAY, JUNE 21, 2012

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:13 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Harper, Green, 
Butterfield, and Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Jerry Couri, Professional Staff Member, 
Environment; Andy Duberstein, Deputy Press Secretary; David 
McCarthy, Chief Counsel, Environment and the Economy; Chris 
Sarley, Policy Coordinator, Environment and the Economy; 
Jacqueline Cohen, Democratic Counsel; Greg Dotson, Democratic 
Energy and Environment Staff Director; and Stephen Salsbury, 
Democratic Staff Assistant.
    Mr. Shimkus. We are going to start about 2 minutes early. 
We do have votes pending that will be called fairly soon, so we 
are going to try to make sure that we get people through the 
cycle as fast as possible, get the testimony, and then move 
forward. So we want to welcome you, and I call the hearing to 
order. I recognize myself for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning. Today, our subcommittee will be looking into 
the issue of hazardous waste manifests required under Section 
3002 of the Solid Waste Disposal Act, and whether it makes 
sense to have these manifests submitted in paper form, or 
converted into an electronic format. I think it undoubtedly 
makes sense to modernize to electronic filing.
    With the commonplace usage of laptops, computers, scanners, 
PDAs, and tablets, the idea of having this information 
maintained electronically seems like a no-brainer to me. I hope 
this hearing helps us understand what good reason has prevented 
us from using an electronic system, and if it is legal in 
nature, how Congress can help encourage a transition.
    When I first learned EPA was requiring multiple copies of a 
paper manifest to track every movement of hazardous waste from 
the generator through the transporter, and to final disposal 
site, I was surprised a more user-friendly format was not being 
used. When I then found out EPA required these same manifests 
be sent via postal mail back to the original waste generator 
and the State regulator to be kept on file, I was astounded at 
the inefficiency of the system, and the cost to both government 
and the private sector.
    When the agency was last proposing revisions that would 
standardize RCRA subtitle C manifesting data requirements, 
EPA's Web site claims about 12 million tons of hazardous waste 
per year was being manifested for shipment, involving 2.4 to 
5.1 million RCRA manifests, requiring about 4.4 to 9.2 million 
waste handling labor hours, costing about $187 to $733 million 
annually. That is a staggering amount. Moreover, 34 State 
governments reportedly spend $199,000 to 416,000 labor hours, 
costing $6.3 to $37 million annually to administer the current 
RCRA hazardous waste manifest program, which when added to 
waste handler burden totals 4.6 to 9.7 millions hours, or in 
terms of cost, $193 to $770 million per year in baseline 
national paperwork burden.
    According to EPA, the agency estimates the cost of the 
paperwork burden on State and private entities from the current 
paper manifest system to be from $193 million to over $400 
million annually. Specifically, EPA's fiscal year 2013 budget 
states a fully implemented electronic manifest system is 
estimated to reduce the reporting burden for firms regulated 
under RCRA's hazardous waste provisions by $76 to $124 million 
annually.
    Especially in a time of unacceptably high unemployment and 
enormous Federal debt and limited State budgetary resources, 
Congress should be looking for ways to lighten the fiscal 
burden generated by the paper manifest system, but do so in a 
way that makes sense for tracking enforcement and public health 
concerns.
    In addition to the regulatory and economic relief an 
electronic manifest provides, proponents also believe 
collateral benefit of an electronic system to include increased 
transparency, access to critical public safety and security 
information for first responders, better tracking services for 
our citizens, improved data for informed policy decisions, and 
program management and greater accountability for how hazardous 
wastes are transported and managed.
    The Senate has twice passed legislation with the support of 
environmental advocacy groups, industry stakeholders, and State 
regulators that created an electronic manifest system at EPA. 
Their approach melded private sector expertise with technology 
and EPA's concern for what a meaningful manifest system needed. 
If the House is going to act on this issue, we need to 
understand why this needs to be done, and how best to make it 
work for Federal and State regulators, the regulated community, 
and the U.S. taxpayer. Furthermore, if the industry wants this 
system and is willing to pay for it, the system should be 
viable, performance-based, and industry should not be forced to 
overpay for the system, nor have their money held hostage by 
Congress or the Executive Branch.
    I am aware that there have been concerns raised about 
various facets of the Senate-passed bill, including whether it 
requires some spending offset, even though it would be fully 
funded by user fees, and whether those funds, once collected, 
should be appropriated. These are issues that we will 
investigate fully and address to the extent that they need to 
be.
    I look forward to working with all parties, and I want to 
thank the witnesses for taking time out of their busy schedules 
to be with us. We appreciate your testimony and look forward to 
being better educated by your experience.
    Before I yield back, I want to finish this. I am going to 
forward this so it is submitted for the record to Monica back 
in the back. This is obviously a new technology, and we are 
going to send it, and that is all we are asking for us to do 
electronically to be able to follow this and in a very 
transparent system.

    [The prepared statement of Mr. Shimkus follows:]

    [GRAPHIC] [TIFF OMITTED] 80936.001
    
    [GRAPHIC] [TIFF OMITTED] 80936.002
    
    Mr. Shimkus. With that, I yield back my time and yield to 
my ranking member, Mr. Green from Texas.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman. Just so we don't get to 
the point where you and I are e-mailing between us up here, 
that we can sit down and talk to each other. We don't want to 
lose the history of conversation by e-mailing.
    But I appreciate the chairman calling the hearing today, 
and welcome both our panels.
    Commonsense change should have broad support in this 
committee, with the Senate having already acting on the issue. 
I hope we will move expeditiously to introduce legislation 
establishing an electronic manifest system that ensures that 
hazardous wastes are designated for and indeed arrive safely at 
designated hazardous waste management facilities.
    The benefits of an electronic manifest are obvious, ranging 
from reduced paperwork, administrative burdens, and millions of 
dollars such a system could save. That is why both EPA and the 
regulating industry agree that we should develop legislation to 
create an e-Manifest system and fund it through user fees. With 
this kind of agreement and participation, there is no reason 
why we cannot pass the bill into law this year.
    So my goal for this hearing is to hear from any concerns 
our witnesses have with Senate Resolution 710, if any, so that 
we can address them and move forward with the bill in the 
House.
    Mr. Chairman, I would like to ask unanimous consent to 
insert a letter in the record from the Natural Resource Defense 
Council, showing their support for e-Manifest program.
    Mr. Shimkus. Without objection, I am happy to receive this 
from my friends at the NRDC.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.003
    
    Mr. Green. I feel the same way sometimes.
    With that, thank you again to our witnesses for appearing. 
I look forward to hearing your testimony. I will just hand you 
my statement.
    Mr. Shimkus. I will see that. The gentleman yields back his 
time. Does the gentleman from Georgia seek time?
    Seeing no other members present, the chair now recognizes 
Ms. Rudzinski from the Environmental Protection Agency. 
Welcome. Your full statement is considered accepted into the 
record, and you have 5 minutes for an opening statement. Thank 
you for coming.

 STATEMENT OF SUZANNE RUDZINSKI, DIRECTOR, OFFICE OF RESOURCE 
CONSERVATION AND RECOVERY, OFFICE OF SOLID WASTE AND EMERGENCY 
           RESPONSE, ENVIRONMENTAL PROTECTION AGENCY

    Ms. Rudzinski. I will focus my remarks on the need for and 
efforts necessary to establish a national electronic manifest 
system, or e-Manifest, to track hazardous waste shipments more 
effectively and efficiently.
    The uniform manifest to track hazardous waste shipments in 
use today is a six-copy multiple paper form that documents the 
chain of custody for waste shipment. Each person in the chain 
must sign the manifest and then ultimately file a copy at their 
own facility, as well as the final facility must file a copy 
back with the original generator to confirm that the waste got 
received.
    Each year, hazardous waste generators prepare about two to 
five million manifest forms. We believe it is time that this 
paper-intensive process enter the 21st century with an 
efficient e-Manifest system, but legislation is needed to do 
so.
    The administration believes there are very significant 
benefits to an e-Manifest system, both in cost savings and 
program efficiencies for the regulated community and the 
regulators. Eliminating most of the manual processing steps is 
expected to result in significant cost savings. The cost 
savings that we would be estimating would be at least $75 
million annually for users and State agencies. The savings 
should be higher if updated to account for today's costs.
    Additionally, an e-Manifest system would improve the 
overall efficiency and effectiveness of the national hazardous 
waste tracking system, providing increased protection to human 
health and the environment. For example, the e-Manifest would 
produce better data quality. Second, the e-Manifest system 
would provide nearly real time tracking capabilities. Users 
would no longer have to wait 30 days or more for paper copies 
to be mailed, processed, and then finally learn whether or not 
their shipment arrived. You could track delays and 
discrepancies very quickly. Third, users could rely on a 
national e-Manifest system as their single point of contact for 
both their Federal and State required manifest data reporting. 
Fourth, the e-Manifest system could reduce the need for onsite 
labor intensive inspection of paper records. Finally, full 
implementation of e-Manifest could foster new data management 
and cost saving possibilities, such as simplification and 
consolidation of existing requirements and systems for our 
biennial reporting of hazardous waste.
    The administration supports the development of a fee-based 
centralized e-Manifest system. Legislation must be enacted to 
make this a reality. Since manifest users would receive the 
greater part of the benefits and cost savings from using the e-
Manifest, it seems fitting to the Agency and the users 
themselves that the manifest users should fund the development 
and operation of the system. On May 23 of 2011, the 
administration transmitted to the House and Senate an e-
Manifest legislative proposal. Legislation would need to 
authorize EPA to collect user fees for system related 
activities, and to deposit those fees in a special Treasury 
account from which funds could be expended only for system-
related activities. This authorization could explicitly provide 
that the monies collected as user fees would be available to 
EPA for use for the payment of e-Manifest system costs.
    Additionally, legislation may need to clarify any 
requirements for use of unique or unconventional contracting 
arrangements for e-Manifest. If e-Manifest legislation or 
related appropriation bills were to authorize and appropriate 
funds to EPA to build the e-Manifest system, as suggested in 
the administration's proposal, EPA would likely procure the 
development of the system using conventional Federal 
acquisition procedures and rely on user fees to cover systems 
operations and maintenance costs. However, if Congress 
authorizes use of a different contracting approach for the 
system build, such as the ``Share-in-Savings'' type of 
performance-based contract that was authorized in the 
Electronic Government Act of 2002, then the contents and 
requirements of such a contract may need to be addressed in the 
legislation.
    It is also important for the legislation to include 
provisions that will ensure that the e-Manifest system and the 
authorizing regulations developed by EPA be effective in States 
on the same date, initially as a Federal requirement, but which 
the States can subsequently be authorized for after enacting 
the necessary State laws. The e-Manifest can be effective as a 
cost savings tool for users and a profitable venture for 
vendors only if it is assured that the e-Manifest will be 
implemented consistently in all States on the same date.
    We look forward to working with Congress to enact 
legislation to provide for the development of an efficient, 
effective e-Manifest system. Thank you very much, Mr. Chairman, 
for the opportunity to be here today. That concludes my 
statement, and I would be pleased to answer any questions that 
you or other members of the subcommittee may have.
    [The prepared statement of Ms. Rudzinski follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.004
    
    [GRAPHIC] [TIFF OMITTED] 80936.005
    
    [GRAPHIC] [TIFF OMITTED] 80936.006
    
    [GRAPHIC] [TIFF OMITTED] 80936.007
    
    [GRAPHIC] [TIFF OMITTED] 80936.008
    
    [GRAPHIC] [TIFF OMITTED] 80936.009
    
    [GRAPHIC] [TIFF OMITTED] 80936.010
    
    [GRAPHIC] [TIFF OMITTED] 80936.011
    
    [GRAPHIC] [TIFF OMITTED] 80936.012
    
    [GRAPHIC] [TIFF OMITTED] 80936.013
    
    Mr. Shimkus. Great, thank you very much. It sounds like 
there is much in agreement, and great possibilities forward. So 
we indeed look forward to working with you.
    Let me recognize myself for the first set of questions.
    In 2006, the Senate Environment and Public Works Committee 
received testimony that the hazardous waste manifest burden was 
the most expensive paperwork requirement EPA imposes under 
Subtitle C. Do you believe that that is still the case?
    Ms. Rudzinski. I believe that is correct.
    Mr. Shimkus. And in your testimony, you mentioned that EPA 
first started analyzing the economic benefits of transitioning 
to an electronic manifest system. The agency estimated that a 
75 percent participation rate could result in an annual net 
savings of $75 million to users and State agencies. How 
realistic do you think that 75 percent rate in that evaluation 
is?
    Ms. Rudzinski. The 75 percent relates to not the generators 
themselves, but actually the number of manifests that would be 
covered, so that would be out of the two to five million paper 
forms that are floating around every year. We think that is a 
very realistic number initially and could go higher over time.
    Mr. Shimkus. And I agree with you. I think people are just 
itching to move from this to this, away from that.
    So if given the authority to set up an electronic manifest 
system, what is a reasonable and appropriate time frame for 
finding a vendor, negotiating a contract, and issuing 
implementing rules, and how much do you think this would cost?
    Ms. Rudzinski. The length of time for the contract will 
depend on what kind of mechanism we use, because there have 
been different types of mechanisms suggested. If we use a very 
conventional procurement approach, typically those contracts 
for other things take in the range of 12 to 18 months. If in 
the case of a novel contract, it may potentially take more 
time.
    Mr. Shimkus. And my last question is how much do you 
envision it will cost a vendor to build a viable electronic 
manifest system?
    Ms. Rudzinski. At this point, we are estimated somewhere 
probably between $7 and $16 million, but that is based on old 
estimates that have not yet been updated, and would also be 
dependent upon what the actual specifications are of the 
system.
    Mr. Shimkus. Great, thank you. That ends my questions.
    I would like to yield to Mr. Green, the ranking member, for 
5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Ms. Rudzinski, you mentioned in your testimony that if e-
Manifest legislation or related appropriations bill were to 
authorize and appropriate funds for EPA for the e-Manifest 
system build as suggested by the administration's proposal, EPA 
would like to procure the development of the system by using 
conventional Federal acquisition procedures and rely on user 
fees to cover the cost of system operations and maintenance. 
Senate bill 710 instead does a ``Share-in-Savings'' approach, 
and you indicate the EPA would need the contents and 
requirements for such a contract to be addressed in the 
legislation.
    I really hesitate for Congress to pick winners and loser, 
although I have to admit the Federal Government doesn't have a 
good history of picking technology programs. The IRS is 
probably the best at that.
    But anyway, has EPA ever done a ``Share-in-Savings'' 
contract before?
    Ms. Rudzinski. I am not positive, but I can certainly get 
back to you for the record if you would like.
    Mr. Green. OK. When the authority was available for these 
contracts under the e-Government Act of 2002, EPA worked with 
GSA to use a ``Share-in-Savings'' contract for e-Manifest. Is 
that correct?
    Ms. Rudzinski. That is correct.
    Mr. Green. Can you discuss that further, what happened from 
there?
    Ms. Rudzinski. Basically we were in the process of working 
on it with GSA. We were working on getting the necessary 
regulations out that would enable us to do the ``Share-in-
Savings'' and I believe the Act expired before we were able to 
implement.
    Mr. Green. OK. Does Senate Resolution 710 adequately 
address the requirements you will need for a ``Share-in-
Savings'' approach? If not, can you elaborate on what needs to 
be done?
    Ms. Rudzinski. The bill S.710 does address the 
requirements. It has the basic needs in it for us, if that was 
the bill that was going to be enacted.
    Mr. Green. OK. Mr. Chairman, those are all my questions.
    Mr. Shimkus. The gentleman yields back his time. The chair, 
without objection, would like to go into a colloquy with Mr. 
Waxman. You have permission to do an opening statement, if you 
would like to do so.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman, and I 
appreciate the----
    Mr. Shimkus. Gentleman is recognized.
    Mr. Waxman [continuing]. Witness for your testimony. I want 
to thank Ranking Member Green. We requested this hearing back 
in January, and we are looking to see how we modernize the 
tracking system for hazardous waste shipments in this country. 
The goals of these efforts are to reduce burden, save money, 
improve data quality. At present, the Federal manifest system 
still relies on paper manifests, just as it did when the system 
was established in 1980.
    So we have got to bring this system into the 21st century. 
Technology has advanced significantly over the last 32 years, 
and we shouldn't be relying on carbon copies to track 
potentially dangerous shipments. I think you would get a 
unanimous agreement on that point from members of the committee 
here.
    The adoption of an electronic manifest system was proposed 
by EPA more than 11 years ago. It has been supported by the 
chemical companies, State agencies, environmental 
organizations. But it still hasn't been adopted. Ironically, 
there were technological concerns--questions about the 
enforceability of digital signatures are one.
    So I didn't hear your testimony, but I know that it has 
been submitted in writing. So we are concerned about how this 
program is going to be funded. For many years, hazardous waste 
generators, shippers, processors have expressed a willingness 
to fund the program through user fees. I hope we can adopt that 
concept. I think we will hear legislation--about legislation 
from the Senate that embodies the concepts that are widely 
supported, authorizing an electronic manifest system with 
regulatory authority for EPA, and a user fee to cover its 
costs.
    I think, Mr. Chairman, the rest of my statement I would 
like to have in the record. I appreciate the courtesy you have 
given me in letting me come in at this point in the hearing to 
make these comments. In S.710--I think we ought to look at it. 
The bill calls for a ``Share-in-Savings'' contract, and in a 
standard ``Share-in-Savings'' contract, the contractor agrees 
to bear the initial project cost. I think this is something we 
ought to examine carefully.
    I thank you for holding this hearing, and I hope we can 
work together to solve this problem.
    [The prepared statement of Mr. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.014
    
    [GRAPHIC] [TIFF OMITTED] 80936.015
    
    Mr. Shimkus. Thank you, Mr. Waxman. Now would you like to 
ask any questions of the witness?
    Mr. Waxman. I am going to pass on asking questions and let 
others who have been here longer have their chance, because we 
are going to have votes.
    Mr. Shimkus. Thank you, sir. Now the chair recognizes the 
gentleman from Georgia, who has no desire for questions.
    Gentleman from North Carolina is recognized.
    Mr. Butterfield. Thank you very much, Mr. Chairman. Thank 
you, Director, for your testimony today. I will try to be as 
brief as I can.
    Protecting the public from hazardous waste is certainly a 
critical mission of the Department of Transportation and EPA. 
Both departments, in coordination with industry and State 
agencies, have been vigilant in the treatment and transport of 
hazardous waste because of the safeguards established by the 
hazardous waste manifest system. Paper manifests provide 
shipping information to help with the tracking of potentially 
dangerous materials, and information about the contents of each 
shipment for emergency responders. Since 2001, EPA has proposed 
a nearly paperless manifest system which would reduce the 
financial burden of paperwork on States and the industry by 
more than $75 million per year.
    I support improving the hazardous waste manifest system by 
using information technologies. I look forward to transitioning 
from the existing paper system while continuing to make safety 
our top priority.
    Let me just ask you, if I can, Madam Director. S.710 
proposes a user fee on people who continue to use paper 
manifests. Is that generally how user fees are allotted, or is 
that tantamount to a tax?
    Ms. Rudzinski. In terms of the user fees for paper, users 
that want to stay with paper currently, in many States, do 
actually have a user fee because at the end they have to submit 
it to the State and the State oftentimes charges fees for 
being--to enter that manifest data into a system.
    In the system that is being proposed for electronic 
manifests, a user would have an option of either going 
electronically or continuing to use paper. At the end of that 
time, you would still need to submit the paper--the final paper 
form back into the system. So they will still be users of the 
system and they will be appropriately charged.
    Mr. Butterfield. I guess what I am getting at, would a 
sliding fee scale be better?
    Ms. Rudzinski. One of the things--that is an issue that we 
would certainly look at if legislation is enacted so that we 
could impose user fees, and we would certainly work with the 
user community to try to make sure we knew what was 
appropriate.
    Mr. Butterfield. Just trying to mitigate the amount that 
would be assessed to small businesses, you know. We are always 
trying to protect small businesses and their bottom line, if we 
can.
    Do paper manifests get lost during transit?
    Ms. Rudzinski. Paper manifests can get lost. They can have 
data quality issues. You can have illegible handwriting so that 
people don't know exactly what is there. E-Manifest offers a 
far superior approach to that.
    Mr. Butterfield. Is intentional fraud an issue with paper 
manifest?
    Ms. Rudzinski. How large an issue that is, I am not sure, 
but I can get back to you.
    Mr. Butterfield. All right. Those are my four areas of 
interest. Thank you. I yield back.
    Ms. Rudzinski. Thank you.
    Mr. Shimkus. Gentleman yields back his time. Now the chair 
recognizes the gentleman from Mississippi, Mr. Harper, for 5 
minutes.
    Mr. Harper. Thank you, Mr. Chairman, and welcome. I 
appreciate your being here today with us, and I have a few 
questions.
    If a vendor is operating the electronic manifest system on 
behalf of EPA, how many EPA staff would be required to work 
full-time on issues related to the electronic manifest system?
    Ms. Rudzinski. Initially the number of people at EPA that 
would be working on it would be working not only on procuring 
the contract, and also developing the regulations that would be 
needed, but that should go down over time because the 
regulations, once they are actually in place, those staff would 
no longer be needed. So it would depend on the actual nature of 
the contract system adopted as to how many staff would be 
needed. Initial estimates are about five to cover the entire 
span of contracting and regulatory activity.
    Mr. Harper. What would be the benefit to EPA or DOT of real 
time tracking that the electronic manifest would provide, just 
in general?
    Ms. Rudzinski. Real time tracking allows you to know where 
a shipment is, if there's a problem on the road, if the 
shipment has been delayed you know immediately where you can 
find it and can actually get help to it more quickly. It will 
also allow you to--if there is some kind of an incident, it 
will help first responders being able to get there.
    Mr. Harper. All right. You had mentioned that the e-
Manifest system could foster new data management possibilities. 
Could you quantify what the cost savings to EPA would be 
through these possibilities that you mentioned?
    Ms. Rudzinski. Qualitatively I can talk to you about it, 
because it will be dependent upon what system is actually 
adopted. The types of things that we are looking at right now 
is you have got biannual reporting systems that for all 
hazardous waste, a lot of that could be incorporated into the 
e-Manifest system so that potentially you do not have to do 
extra reporting. Things like our hazardous waste export 
notifications could potentially be melded in as well, so you 
could do away with other system requirements.
    Mr. Harper. OK. Why does the administration believe that a 
fee-based centralized e-Manifest system has the greatest chance 
of succeeding, versus other methods?
    Ms. Rudzinski. The industry and EPA have--and the States 
have--all been working together, and indicated that user fees 
are important because in these budget times, it is important to 
find ways to fund the system. So the thought was that the 
users, and the users themselves agree, that they should help 
bear the cost of the system.
    Mr. Harper. Thank you, Mr. Chairman. I will yield back.
    Mr. Shimkus. I want to thank my colleague real briefly 
before we let you go. The only system-related activities on 
user fees is--I think that was a great point to raise. This 
real-time tracking is like UPS, like FedEx, like the U.S. 
Postal Service, so we should be able to get there. And by the 
time I did my opening statement, sent it back to the clerks to 
file, they had already sent me a confirmation that they have 
it. That is really where we want to go and I think we can get 
there, we just need to work together.
    I appreciate my colleagues on the minority side. It looks 
like there is something we might be able to do.
    With that, we want to dismiss you. Thank you for coming, 
and I call our second panel up.
    Ms. Rudzinski. Thank you, sir.
    Mr. Shimkus. I want to thank the second panel. First I 
would like to ask unanimous consent for a letter from Dow 
Chemical in support of e-Manifest legislation. Is there any 
objection? Hearing none, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.016
    
    Mr. Shimkus. Now we also want to welcome Ms. Silvia--is 
that pronounced correctly?
    Ms. Silvia. Yes, sir.
    Mr. Shimkus. Who is the Virginia Department on 
Environmental Quality, the Senior Waste Inspector. Thank you 
very much. Also joining her is David Case, Executive Director, 
Environmental Technology Council. Your full statements are in 
the record. We will give you 5 minutes to summarize, and we 
will start with you, Ms. Silvia. So welcome.

  STATEMENTS OF LISA SILVIA, SENIOR WASTE INSPECTOR, VIRGINIA 
     DEPARTMENT OF ENVIRONMENTAL QUALITY, ON BEHALF OF THE 
  ASSOCIATION OF STATE AND TERRITORIAL SOLID WASTE MANAGEMENT 
    OFFICIALS; AND DAVID R. CASE, PRESIDENT, ENVIRONMENTAL 
                       TECHNOLOGY COUNCIL

                    STATEMENT OF LISA SILVIA

    Ms. Silvia. All right. Thank you, Mr. Chairman, and members 
and representatives of this subcommittee. My name is Lisa 
Silvia, and I am a senior waste inspector with the Virginia 
Department of Environmental Quality, Tidewater Regional Office 
in Virginia Beach, Virginia. I am here today on behalf of the 
Association of State and Territorial Solid Waste Management 
Officials, ASTSWMO, to offer perspective as a regulatory 
compliance inspector of a uniform hazardous waste manifest 
system, in particular, the proposed development and enactment 
of the electronic manifest system.
    In addition to the views expressed in this testimony, I 
would like to note that individual, State, or territorial waste 
programs may have other perspectives based on their State 
experience with the use and management of manifests.
    ASTSWMO supports the development and enactment of a 
hazardous waste electronic manifest system for many reasons, 
including reason one, real time tracking of hazardous waste 
from generation through transport to its final destination for 
treatment, storage, or disposal. At each stop along this travel 
route, a signature is collected and a page of the current 
multi-copy paper manifest form is removed. Oftentimes, the 
waste is transferred between transporters and they make many 
stops prior to its final destination. The generator may be 
unaware of the location of his waste along the route, although 
he continues to maintain responsibility for it. Knowledge of 
the waste being received and accepted at its final destination 
is not certain until the generator receives a final signed 
paper copy of the manifest from the destination facility. With 
an electronic database, the waste could be tracked at each 
stop, allowing the regulated community, that is, businesses, 
government entities, and non-profits, as well as regulators and 
other government officials, to know where the waste is in real 
time.
    Electronic tracking also provides an emergency response 
benefit. Emergency responders would be able to access 
information online of a transport vehicle's contents, or the 
expected hazardous wastes at a facility, thus potential hazards 
could be known or anticipated prior to or en route to a 
transportation or facility incident.
    Second, for the time and cost savings of the regulated 
community as well as regulators from postage and paper form 
acquisition and retention costs, to the time impact on 
businesses as I, the inspector, review paper on site. During a 
hazardous waste compliance regulatory inspection, inspector 
will typically review 3 years worth of manifests. This time 
includes reviewing the documents, but may also include time 
waiting for the forms to be located and pulled. In addition, 
the regulated community loses time while overseeing the 
inspector as she completes her review on site. This is time 
lost to the regulated community member's business. As an 
inspector, I would prefer to spend the time on site with the 
regulated community providing compliance assistance and 
reducing hazardous waste generation as opposed to reviewing 
paper.
    Reason three, providing access to tracking information in 
real time across State borders, something not readily 
accessible under the current paper-based manifest system.
    Four, giving an inspector access to information to 
prioritize and focus inspection efforts through desktop 
reviews. This allows for more productive use of the taxpayer's 
dollar.
    Reason five, electronic manifests would provide for a true 
adherence to paperwork reduction. Virginia, like many States, 
has moved toward electronic retention of all documents. This 
not only reduces paper, but makes records more accessible to 
everyone, most importantly, the public.
    And finally, six, making compliance with regulatory 
manifest retention requirements easier for business by having 
everything in one place.
    In conclusion, an electronic manifest system would ensure 
national consistency and compliance, save time and costs, make 
information more accessible, and provide for safer roads and 
emergency response. ASTSWMO is committed to moving hazardous 
waste management, like most every other government program, 
into the 21st century.
    That concludes my statement. I am open to questions, and 
thank you for the opportunity to speak with you today.
    [The prepared statement of Ms. Silvia follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.017
    
    [GRAPHIC] [TIFF OMITTED] 80936.018
    
    [GRAPHIC] [TIFF OMITTED] 80936.019
    
    [GRAPHIC] [TIFF OMITTED] 80936.020
    
    [GRAPHIC] [TIFF OMITTED] 80936.021
    
    [GRAPHIC] [TIFF OMITTED] 80936.022
    
    [GRAPHIC] [TIFF OMITTED] 80936.023
    
    Mr. Shimkus. Thank you very much.
    The chair now recognizes Mr. Case. Sir, your full statement 
is in the record. You have 5 minutes.

                   STATEMENT OF DAVID R. CASE

    Mr. Case. Mr. Chairman, Ranking Member Green, and members 
of the subcommittee, thank you very much for your invitation to 
testify this morning.
    The Environmental Technology Council is the leading trade 
association for the hazardous waste management industry, and 
our companies produce two to five million manifests every year 
in order to track hazardous wastes from the original point of 
generation at our customer's facility, over the highways or 
over the rail tracks, to eventually the recycling or treatment 
or disposal facility that our member companies operate.
    I, too, have a list of reasons why the electronic manifest 
system is so important, but I have heard from the chairman most 
of my list of reasons, and from the other witnesses this 
morning. I think we are all in agreement that an electronic 
manifest system is long overdue. Therefore, I would like to use 
my 5 minutes this morning to address some of the other 
questions that have been raised about the system, and in 
particular, I thought I would focus first on the user fee.
    Industry stepped up many years ago when we were first 
planning an electronic system and said we would be willing to 
pay for the system through a user fee. I know that raises 
concerns about whether the user fee is a kind of indirect tax 
on industry, but we don't see it that way. The important point 
to remember is we already pay for the paper system. We pay an 
enormous amount of money for the paper system. We have buy the 
manifests, we have to bear the cost of mailing all the copies 
through the U.S. mail. We have storage facilities where there 
are reams and reams of file drawers containing paper manifests, 
and we have to bear that cost. We see the user fee as a way of 
obtaining a much more efficient and cost effective system that 
will save us money. So in the end, the user fee is a way of 
getting a net savings while also improving the operation of the 
e-Manifest system.
    The second question that has been raised is about our 
proposal--our support for a ``Share-in-Savings'' contract as 
the way of developing the e-Manifest system, and the reason we 
support that is we think a ``Share-in-Savings'' contract 
incentivizes the IT contractor to build a system that would be 
best for all the users, otherwise, the contractor won't 
properly get back its investment and its profit. The vendor 
will only get paid if it develops an efficient, cost effective, 
user friendly system. We much prefer that approach to a 
standard government contract where the contractor simply meets 
specifications that EPA issues in order to get paid. So we 
think the ``Share-in-Savings'' contract is a preferable way to 
go. We are not wedded to it. If the only way this bill could 
move forward is if there were some conventional contract 
requirement, we could live with that, but we just think a 
``Share-in-Savings'' contract is a much preferred way.
    The third issue that has come up has to do sometimes with 
the security of the system. We recognize that paper manifests 
are not particularly secure. They can errors, they can have all 
sorts of problems associated with them, including not being 
able to read handwriting, and we think an e-Manifest system 
will provide a much more secure system. The vendor will have 
security provisions in the software to avoid people hacking in 
or whatever, and I think it will work out just fine.
    Lastly, we have been asked why doesn't the industry develop 
a system on their own? Why do you need legislation? Why do you 
need EPA to do this? We thought very seriously about developing 
our own system. As you can imagine, our industry, our companies 
have already developed very sophisticated and innovative 
business-to-business electronic systems. We do all of our 
hazardous waste management, from the initial customer order to 
waste profiling to waste receipts to invoicing, electronically. 
The only thing that is not done electronically is the manifest, 
and we could very easily integrate that into our system. 
However, in our discussions with EPA and most particularly, the 
Justice Department, they have emphasized that the manifest is 
not just a data collection system, it is a very important 
compliance and enforcement system under the law, and therefore, 
it has to be designed, operated, and enforced by the 
government, by EPA. It could not be done by a private entity.
    I think those are the major questions, Mr. Chairman. I am 
open to any other questions, of course, that the committee may 
have. Thank you very much.
    [The prepared statement of Mr. Case follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.024
    
    [GRAPHIC] [TIFF OMITTED] 80936.025
    
    [GRAPHIC] [TIFF OMITTED] 80936.026
    
    [GRAPHIC] [TIFF OMITTED] 80936.027
    
    [GRAPHIC] [TIFF OMITTED] 80936.028
    
    [GRAPHIC] [TIFF OMITTED] 80936.029
    
    [GRAPHIC] [TIFF OMITTED] 80936.030
    
    Mr. Shimkus. Thank you, Mr. Case, and Mr. Case does yield 
back his time.
    Let me just go briefly to a couple questions. First of all, 
we understand storage here, and we understand digitization of 
records. If you go to any member's office, especially in this 
building, you have a whole wall of file cabinets, which I would 
guess, other than Mr. Sarley's softball gear, I am not sure 
what is being stored in there anymore because everything is 
digital and filed away--and we just don't have that space. So 
multiply that by numerous copies along the process of what you 
put in. That is a very good point.
    I think the other one is--and I would like to go to Ms. 
Silvia, explain the real time--I guess your testimony talked 
about real time, but you added the phrase ``across State 
lines.'' So can you just expound on that, and the importance of 
that for you?
    Ms. Silvia. Well, I guess I will start with in Virginia, 
the facilities that I inspect, most of that waste leaves 
Virginia. It may be generated in Virginia but it leaves 
Virginia, and in order for me to verify it has been received, 
or if I want to check on the status, I would have to coordinate 
with my counterparts in other State agencies, where with this 
system, I would in theory be able to pull that information up 
and see that it is there.
    In some enforcement cases, there may be a requirement on a 
generator to verify that they have removed some hazardous 
waste. This would give them the opportunity of being able to 
show me instantaneously when it was received in whatever State 
it went to. So it would bring them back to compliance quicker.
    So it is just--right now we don't have--each State does not 
necessarily manage manifests in the same way when they are 
received. A single system like this would allow me to see what 
is going on across the country.
    Mr. Shimkus. I think any young adult 25 years or younger 
would be aghast at the file cabinets and carbon copy documents 
that you have got to pull from file cabinets, especially in 
your job inspecting, and I think your testimony also raised 
that issue of when you are doing a 3-year back look, actually 
going and grabbing and pulling the files out, that really 
happens, right?
    Ms. Silvia. Oh yes, it does.
    Mr. Shimkus. Very time consuming?
    Ms. Silvia. Very time consuming. There is no regulatory 
requirement to keep the paper on site, so oftentimes there is a 
need to coordinate to go get the paper from wherever it is 
being kept. For smaller businesses in particular, they don't 
know what these pieces of paper really mean so some pieces may 
be in one department, another may be with another person, or it 
may not have even been kept. So there is a time element just 
waiting for them to locate those pieces of paper.
    Mr. Shimkus. Thank you. I am going to end and I am going to 
yield now to Mr. Green, the ranking member.
    Mr. Green. Thank you, Mr. Chairman.
    Ms. Silvia, you mentioned in your testimony Virginia has 
established electronic shipping system to track medical waste, 
and how was the upstart of that system paid for?
    Ms. Silvia. I am afraid I can't answer that. I am aware of 
the system. It was done at the request of a medical waste 
transporter, but I don't work directly in the medical waste 
program. But I would be happy to find that information out for 
you, if you like.
    Mr. Green. Yes, I would be interested because obviously 
when we are talking about hazardous waste it would be similar 
for medical waste, how it works and how it was created, a much 
smaller system.
    I know you represent a number of State governments, and I 
have a very urban district in Houston, and industrial wastes 
are part of our everyday life that we live. I have five 
refineries and chemical plants. We try and recycle everything 
that we can because you make money doing it, but there are some 
things you just can't do, and so you do have to transfer it 
though to different locations, including some, you know, 
landfills.
    I know we have a big effort in our area, both with our 
State agency, our city agencies, going down the road our trucks 
get stopped real often. When I am driving in my district I 
see--whether it is Houston police, the country sheriff, or like 
I said, Department of Public Safety, and I am sure they are 
going to stop some of the trucks that are in our district. 
Would that still be--comply with what most State laws require 
to have that manifest on that vehicle with electronic waste? 
Would your members who--I know I probably represent a bunch of 
your members, but would they be able to do that with that 
vehicle?
    Mr. Case. The Department of Transportation, separate from 
EPA, requires certain kinds of shipping papers to be on the 
vehicle, and those would continue to be on the vehicle. The 
manifest, though, is different. It has lots of very important 
information on the hazard posed by the waste, the volumes, the 
proper responses, so that unlike--you are describing kind of a 
standard DOT stop----
    Mr. Green. Typically it is weight issues, but they also do 
a full inspection.
    Mr. Case. Right. But even the larger concern, I think, is 
if there is an emergency, if there is a fire on the truck, if 
there is a spill. The current regulations require that the 
manifest be kept on the vehicle. You can imagine if there is a 
fire in the back of the vehicle, and emergency responder 
doesn't want to crawl into the cab to find the manifest. We 
would like them to be able to go on a laptop or use their 
smartphone to find all the information they need for the 
response.
    Mr. Green. So that would be available to the regulatory 
agency to the law enforcement who is having the response--the 
first responders?
    Mr. Case. Yes, indeed. The system as we envision it--and 
another reason for a ``Share-in-Savings'' contract is it gives 
us an opportunity to work with that vendor and make sure all 
these features are in the system. We would like emergency 
responders to have their own password and identities and 
ability to access the information they need in the event of an 
emergency.
    Mr. Green. Mr. Chairman, I know I am almost out of time and 
I want to have time for my North Caroline colleague, but like I 
said earlier, I have some hesitancy about the Federal 
Government picking a system, because we don't have a good 
record of picking our own computers, much less one like that. 
So I think ``Share-in-Savings'' may give us that kind of trial 
and error, because we want to make sure it works when you pay 
for it.
    Mr. Case. Precisely.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time. Chair 
recognizes the gentleman from Mississippi, Mr. Harper, for 5 
minutes.
    Mr. Harper. Thank you, Mr. Chairman, and thanks to you each 
for being here today.
    Ms. Silvia, I have a couple of questions I would like to 
ask you first, if I may. You mentioned that you have 
encountered problems with the regulated entities' paperwork, 
including their inability to find the paperwork. EPA also 
testified about the ability of an electronic system to 
substantially reduce data problems.
    So my first question would be, how prevalent is it that 
regulated entities either cannot find their paperwork, the 
paperwork is hard to comprehend, or the regulated entity has 
had problems filling out the paperwork?
    Ms. Silvia. Well, I will just state that from my own 
experience as an inspector, particularly the smaller 
businesses, they rely often on their service vendor to prepare 
the form for them. They are unaware of what it means, what the 
information on it says. It is all Greek to them, excuse the 
term. And so they don't understand the significance of that 
piece of paper, so it tends not to get the respect that it 
would deserve and gets lost. It is a bill for them, for want of 
a better term. And so oftentimes when I go to a smaller 
business who does not have staff that just do environmental 
compliance, they don't have this paper. That is a citable 
violation, and so to have an electronic system that would be 
already in existence. They would not have that violation--
apparent violation assessed against them.
    Mr. Harper. So you obviously agree with the EPA's 
assessment that the electronic system would certainly improve 
that manifest data quality?
    Ms. Silvia. Absolutely, and we see oftentimes because they 
rely on a third party to complete the form for them, there may 
be errors on the form because the person filling it out doesn't 
necessarily have the firsthand knowledge that the generator 
themselves have, and that too can lead to potential violations 
for that generator.
    Mr. Harper. Thank you.
    Mr. Case----
    Mr. Case. Sir.
    Mr. Harper [continuing]. Our witnesses have mentioned the 
benefit of the electronic manifest for first responders. I 
wasn't here, I haven't heard anybody mention the case out of 
Akins, North Carolina, and could you tell me how that e-
Manifest system may have been helpful in that instance?
    Mr. Case. I would be happy to.
    There was an incident in Akins, North Carolina, probably 4 
years ago in which a small storage facility--we call them 10-
day transfer facilities--contained a variety of hazardous 
wastes and a small fire began. We now think that the fire was a 
result of pool chemicals that had been picked up and stored at 
the facility, and that the fire was then accelerated by other 
wastes that were present. When--as I understand it, when the 
emergency responders arrived they did not have the manifest 
information for what was in the warehouse. They didn't want to 
go into the warehouse to try to find it, and so they evacuated 
an enormous amount of people as a safeguard, and they let the 
building burn down.
    Our belief is the fire could have easily been put out 
initially if the information about the waste was available 
immediately, electronically and the emergency responders could 
have had that information.
    Mr. Harper. Thank you. I yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time. The chair 
recognizes the gentleman from North Carolina, Mr. Butterfield, 
for 5 minutes.
    Mr. Butterfield. Thank you, Mr. Chairman.
    Mr. Case, let me just pick up where you left off there with 
the emergency responders. Do you envision if we go to an e-
Manifest system that the responders will have that technology 
in their vehicles onsite, or would they have to rely on a third 
party for the information?
    Mr. Case. We believe they will have ready access on their 
vehicles to the electronic information. They case use an 
iPhone, a smartphone, an iPad, as Mr. Chairman has in front of 
him, any of the commonly available electronic devices----
    Mr. Butterfield. And would you envision them getting all of 
the manifest, or just relevant portions of it?
    Mr. Case. An advantage of an electronic system is it would 
be indexed by transporter, by generator, by any way you wanted 
to index the information so you could easily access it. You 
wouldn't be searching through lots of electronic documents.
    Mr. Butterfield. Do you represent the smaller shippers or 
the waste generators?
    Mr. Case. As customers we do. Our companies are major 
hazardous waste management companies, but we service dry 
cleaning shops, gas stations, all of the small businesses 
across the United States.
    Mr. Butterfield. Would you speak to the sliding fee scale 
that I mentioned earlier? Would a fee scale based on the amount 
of waste be helpful?
    Mr. Case. Yes. I think the vendor will have to come up with 
a fee scale that promotes maximum usage of the electronic 
system, and for those generators who have to use paper, we will 
accommodate them and simply require some sort of fee for 
transferring their data into the electronic system. It will 
still be a lot cheaper for them than the current system.
    Mr. Butterfield. Just thinking ahead about the small 
businesses, I don't want them to be overly burdened with large 
fees.
    Mr. Case. Absolutely, and I think they will be able to take 
advantage of the electronic system and the savings inherent in 
that, and whatever paper manifests are still required will be 
handled more cheaply.
    Mr. Butterfield. Thank you. I yield back, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    I will just finish by saying for the first-line responders, 
which we work with very closely, especially in the Telecom 
Subcommittee, and some of the pieces of legislation, whether it 
is spectrum auction and whatever dollars go to, what we have 
been trying to do is make sure that Federal dollars do help the 
local first-line responders and so that the chief or the engine 
does have the iPad or the iPad 2 where they can take pictures 
or they can drill down and look at a building and see the 
structure and stuff. So I do think working together that they 
can have much more information than they have now, which they 
really have zero now.
    So this is very exciting. We look forward to working with 
you. Thank you for your time. Thank you for the expeditious 
nature in us getting through this, as they have just called 
votes. Seeing no other members and hearing no requests for 
time, I will call the hearing now adjourned.
    [Whereupon, at 11:04 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHIC] [TIFF OMITTED] 80936.031
    
    [GRAPHIC] [TIFF OMITTED] 80936.032
    
    [GRAPHIC] [TIFF OMITTED] 80936.033
    
    [GRAPHIC] [TIFF OMITTED] 80936.034
    
    [GRAPHIC] [TIFF OMITTED] 80936.035
    
    [GRAPHIC] [TIFF OMITTED] 80936.036
    
    [GRAPHIC] [TIFF OMITTED] 80936.037
    
    [GRAPHIC] [TIFF OMITTED] 80936.038
    

                                 <all>

</pre></body></html>
